<html>
<title> - ADDRESSING THE LEAD CRISIS THROUGH INNOVATION AND TECHNOLOGY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       ADDRESSING THE LEAD CRISIS
                   THROUGH INNOVATION AND TECHNOLOGY

=======================================================================

                             FIELD HEARING

                               BEFORE THE

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 15, 2019

                               __________

                           Serial No. 116-50

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-936PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

              Subcommittee on Investigations and Oversight

              HON. MIKIE SHERRILL, New Jersey, Chairwoman
SUZANNE BONAMICI, Oregon             RALPH NORMAN, South Carolina, 
STEVE COHEN, Tennessee                   Ranking Member
DON BEYER, Virginia                  ANDY BIGGS, Arizona
JENNIFER WEXTON, Virginia            MICHAEL WALTZ, Florida
                        
                        
                        C  O  N  T  E  N  T  S

                            October 15, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

Statement by Representative Donald M. Payne, Jr., U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

                               Witnesses:

Panel I:

The Honorable Joe DiVincenzo, Jr. County Executive, Essex County, 
  New Jersey
    Oral Statement...............................................    15
    Written Statement............................................    17

The Honorable Joseph Scarpelli, Mayor of Nutley, New Jersey
    Oral Statement...............................................    20
    Written Statement............................................    22

The Honorable Michael Venezia, Mayor of Bloomfield, New Jersey
    Oral Statement...............................................    29
    Written Statement............................................    32

Discussion, Panel I..............................................    37

Panel II:

Dr. Diane Calello, Executive Medical Director, New Jersey Poison 
  Information and Education System and Associate Professor of 
  Emergency Medicine, Rutgers University
    Oral Statement...............................................    43
    Written Statement............................................    46

Dr. Marc Edwards, University Distinguished Professor, Virginia 
  Polytechnic Institute
    Oral Statement...............................................    52
    Written Statement............................................    54

Mr. Michael Ramos, Chief Engineer, Chicago Public Schools and 
  Inventor, the Noah Auto Flushing Device
    Oral Statement...............................................    57
    Written Statement............................................    59

Dr. Eric Roy, Founder, Hydroviv
    Oral Statement...............................................    64
    Written Statement............................................    66

Discussion, Panel II.............................................    68

             Appendix I: Answers to Post-Hearing Questions

Dr. Marc Edwards, University Distinguished Professor, Virginia 
  Polytechnic Institute..........................................    76

Mr. Michael Ramos, Chief Engineer, Chicago Public Schools and 
  Inventor, the Noah Auto Flushing Device........................    82

Dr. Eric Roy, Founder, Hydroviv..................................    83

            Appendix II: Additional Material for the Record

Statements submitted by Representative Mikie Sherrill, 
  Chairwoman, Subcommittee on Investigations and Oversight, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    90

Supporting documents submitted by Mr. Michael Ramos, Chief 
  Engineer, Chicago Public Schools and Inventor, the Noah Auto 
  Flushing Device................................................   104

 
                       ADDRESSING THE LEAD CRISIS
                   THROUGH INNOVATION AND TECHNOLOGY

                              ----------                              


                       TUESDAY, OCTOBER 15, 2019

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:06 a.m., at 
the Early Childhood Center at Forest Glen, 280 Davey Street, 
Bloomfield, New Jersey, Hon. Mikie Sherrill [Chairwoman of the 
Subcommittee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Sherrill. Without objection, the Chair is 
authorized to declare recess at any time.
    Good morning, and welcome to a hearing of the 
Investigations and Oversight Committee of Science, Space, and 
Technology. We have quite a few people here from throughout the 
community, and I'd like to recognize County Executive Joe 
DiVincenzo--thank you for coming--his Chief of Staff, Phil 
Alagia; from Senator Booker's staff, Zach McCue; from Senator 
Menendez's staff, Casim Gomez; from Representative Gottheimer's 
staff, Cheryl Cruz. We also have Frijoler Carlos Caveras, 
Councilman Nick Joanow, Councilwoman Jenny Mundell, Fire Chief 
Lou Venezia, Police Director Sam DeMaio, and from our Board of 
Ed. Mr. Tom Heaney. And then I would also like to give a 
special welcome to our A.P. students from Bloomfield High 
School. Thank you for coming.
    Well, it's a pleasure to do this field hearing right here 
in Bloomfield. I wish we could do every hearing here in the 
district, not sure our Virginian panel members would appreciate 
that, but I would love it.
    We're here to talk about an environmental issue that 
threatens millions of Americans and is hitting our State hard 
in 2019. A new analysis by New Jersey Future found that over 5 
million New Jerseyans may be exposed to lead contamination from 
water. The Pequannock Water System, which serves half a million 
people across Bloomfield, Belleville, and Pequannock Townships 
and part of Nutley, as well as the western part of Newark, has 
seen escalating lead levels as far back as 2017.
    The U.N. General Assembly and the Human Rights Council 
recognized access to safe drinking water as a basic human 
right. We know in Flint, Michigan, fair enough, 6 to 12,000 
children were impacted by unsafe drinking water. When we see 
contamination that threatens human health, especially the 
health of our children, we need to deploy all available 
resources to address it.
    But in April, the New Jersey Department of Environmental 
Protection (NJ DEP) reported that it could cost up to $2.3 
billion dollars to replace all of the lead services lines in 
New Jersey. So to put that in context, the entire budget of the 
New Jersey Department of Environmental Protection in 2018 was 
$214 million. So it's agonizing for everyone when we see a 
desperate need for improvement in a public good, but that need 
comes with a high price tag and a slow timeline.
    Addressing lead is a diffuse problem where the exposure 
comes from millions of little pieces of hardware under our 
yards, in our basements, and up to our taps. So, first, let me 
say how fantastic it is that countless New Jersey State and 
local officials, the water utilities, and the Department of 
Health and Environmental Protection have locked arms to 
confront this issue in recent months.
    Under Mr. DiVincenzo's leadership, Essex County has 
extended an incredible $120 million dollars in bond authority 
to support lead service line replacement in the greater Newark 
region. Thank you. And just last week, Governor Murphy rolled 
out a comprehensive Lead Action Plan that will beef up lead 
testing, public disclosures, and public funding for lead 
removal efforts.
    But lead exposure in New Jersey is a kitchen-sink problem, 
and we need to throw everything we have at it. We have two 
powerful tools in our toolkit: Innovation to find solutions 
that are faster, cheaper, and safer; and public education so 
that families and businesses can better protect themselves. And 
in times like these, America's small businesses and university 
researchers can really shine.
    In preparing for this hearing, we have run across dozens of 
brilliant new ideas for tackling lead in drinking water, from 
new methods for locating lead service lines where they exist, 
to strategies for getting lead service lines out of the ground 
at a lower cost and with less disruption. I want to make sure 
that the Federal Government is doing everything it can to get 
these smart ideas out of the lab and into the community and 
educating as many people in our community as possible and best 
practices and available services.
    So I'm delighted to welcome two panels of distinguished 
witnesses today to guide our discussion. And here in New 
Jersey's 11th District, we've been celebrating the 
contributions of our Italian-American community, and I am proud 
that we see that on full display here today in panel one. So in 
panel one--I was told as an Irish American that I'm outnumbered 
today.
    So in panel one I would like to welcome Mayor Venezia, 
Mayor Scarpelli, and County Executive DiVincenzo. They are on 
the front lines of the response to New Jersey's lead crisis, 
and I'm so glad we will have this opportunity to hear what 
they're hearing so we in Washington can be as responsive as 
possible.
    I'm also thrilled to have Congressman Beyer and 
Congresswoman Wexton here today. I was just informed--something 
I didn't know--Congresswoman Wexton's maiden name is Tosini, so 
she's here celebrating as well the contributions of Italian 
Americans and carrying that banner.
    Congressman Beyer has been a stalwart champion on clean 
water throughout his tenure in Congress. Congresswoman Wexton 
was a tireless environmental advocate when she served in the 
Virginia State Senate, and she is keeping up the good fight as 
a Member of Congress.
    And now we just have Congressman Payne here, and 
Congressman Payne has been laser-focused on solutions to 
address lead exposures his constituents are facing in Newark. 
We're proud to have him join us today. So with some of the most 
capable Members of Congress on today's panel, we are off to a 
good start.
    [The prepared statement of Chairwoman Sherrill follows:]

    Good morning and welcome a hearing of the Investigations & 
Oversight Subcommittee. It's a pleasure to be able to have this 
meeting right here in Bloomfield. I wish we could do every 
hearing in the district! We're here to talk about an 
environmental issue that threatens millions of Americans, but 
sadly is hitting our state hard in 2019. A new analysis by New 
Jersey Future found that over five million New Jerseyans may be 
exposed to lead contamination from water. The Pequannock Water 
System- which serves half a million people across Bloomfield, 
Belleville and Pequannock Township and part of Nutley as well 
as the western part of Newark - has seen escalating lead levels 
as far back as 2017.
    The UN General Assembly and the Human Rights Council 
recognized access to safe drinking water as a basic human 
right. When we see contamination that threatens human health, 
especially the health of our children, we need to deploy all 
available resources to address it.
    But in April, the New Jersey Department of Environmental 
Protection reported that it could cost up to $2.3 billion 
dollars to replace all of the lead services lines in New 
Jersey. To put that in context, the entire budget for the New 
Jersey Department of Environmental Protection in 2018 was $214 
million.
    Its agonizing for everyone when we see a desperate need for 
improvement in a public good, but that need comes with an high 
price tag and a slow timeline. Addressing lead is a diffuse 
problem, where the exposure comes from millions of little 
pieces of hardware under our yards, in our basements and up to 
our taps.
    First let me say that it is fantastic how countless state 
and local officials, the water utilities, and the Departments 
of Health and Environmental Protection have locked arms to 
confront this issue in recent months. County Executive 
DiVincenzo and Essex County have extended an incredible $120 
million dollars in bond authority to support lead service line 
replacement in the greater Newark region. And just last week 
Governor Murphy rolled out a comprehensive Lead Action Plan 
that will beef up lead testing, public disclosures, and public 
funding for lead removal efforts.
    But lead exposure in New Jersey is a kitchen sink problem. 
We need to throw everything we have at it.
    We have two powerful tools in our toolkit: innovation, to 
find solutions that are faster, cheaper, and safer; and public 
education, so that families and businesses can better protect 
themselves. And in times like these, America's small businesses 
and university researchers can really shine. In preparing for 
this hearing, we have run across dozens of brilliant new ideas 
for tackling lead in drinking water, from new methods for 
locating lead service lines where they exist, to strategies for 
getting lead service lines out of the ground at a lower cost 
and with less disruption. I want to make sure that the federal 
government is doing everything it can to get these smart ideas 
out of the lab and into the community.
    I know that not every new invention will be available to 
help New Jersey with the crisis we're facing today. But if our 
discussion today helps protect even one township from lead 
exposure, we can be proud of that effort.
    I'm delighted to welcome two panels of distinguished 
witnesses today to guide our discussion. It looks like the 
Italian roots of so many New Jerseyans will be particularly 
well-represented on Panel I! Mayor Venezia, Mayor Scarpelli and 
County Executive DiVincenzo are on the front lines of the 
response to New Jersey's lead crisis.
    I'm so glad we will have this opportunity to hear what 
they're hearing so we in Washington can be as responsive as 
possible.
    I'm also thrilled to have Congressman Payne, Congressman 
Beyer and Congresswoman Wexton here today. Congressman Beyer 
has been a stalwart champion on clean water protections 
throughout his tenure in Congress. Congresswoman Wexton was a 
tireless environmental advocate when she served in the Virginia 
State Senate, and she is keeping up the good fight as a 
freshman Member. And Congressman Payne has been laser-focused 
on solutions to address lead exposures his constituents are 
facing in Newark. We're proud to have him join us. With three 
of the most capable Members of Congress on today's panel, we're 
off to a good start.
    Thank you all for being here and I look forward to our 
discussion.

    Chairwoman Sherrill. So I'd like to first ask unanimous 
consent that Congressman Payne be permitted to join the panel. 
Without objection.
    So thank you all for being here today, and I'm looking 
forward to a good discussion.
    I now recognize Congressman Payne of Newark for an opening 
statement.
    Mr. Payne. Good morning. For those who don't know me, I am 
Congressman Payne--Donald Payne--I'm Congressman Donald Payne, 
Jr., Representative from the 10th congressional District, State 
of New Jersey, which also represents part of Bloomfield.
    I want to thank Representative Sherrill for conducting this 
timely hearing. She's the Chair of the Subcommittee on 
Investigations and Oversight for the House Science, Space, and 
Technology Committee, and I want to thank her for allowing me 
to participate in today's hearing.
    Now, I've been working diligently on this crisis since it 
began and looking to provide Federal resources--financial and 
educational--to help for the issue in Newark that we have seen 
that has become a crisis. Residents need to know what is being 
done to improve Newark's water as quickly and effectively as 
possible. So once again, I thank her for conducting this 
hearing, and I'm proud to be here today.
    When I first learned that there were unsafe levels of lead 
in Newark's drinking water, I was shocked. This is the same 
water my family and I drink and use to clean our food. It is 
something I never thought could happen here. For decades, 
Newark was known for having some of the cleanest, purest water 
in the country, and it still is, but aging pipes and inadequate 
filters have taught us that clean water is something we cannot 
take for granted. That is why I am doing everything I can to 
help my constituents during this crisis.
    In 2016, I introduced the Test for Lead Act into Congress. 
This bill would establish stronger tests for lead in schools 
across the country. I've signed onto a letter to the U.S. 
Environmental Protection Agency (EPA) to make sure that we have 
enough bottled water to supply residents until their drinking 
water is safe. I have signed onto another letter through the 
Department of Health and Human Services to make sure none of 
the tainted water ends up being used for mixed formula for 
infants. In addition, I've handed out bottled water to 
constituents at two different distribution centers to get an 
idea of what my constituents are going through on a day-to-day 
basis. It gave me a chance to meet people affected by the 
crisis to discuss their fears about the drinking water and 
learn what other solutions might be available to help them get 
through it.
    No issue is more important than clean drinking water right 
now, and I know that today's hearing will help clarify the 
actions taken to clean that water and protect the health of our 
residents.
    And with that, Madam Chair, I yield back.
    [The prepared statement of Mr. Payne follows:]

    Good Morning.
    I am Congressman Donald M. Payne, Jr., representative for 
New Jersey's 10th District. I want to thank Representative 
Mikie Sherrill for conducting this hearing.
    She is the Chair of the Subcommittee on Investigations and 
Oversight for the House Science, Space and Technology 
Committee.
    We have been working diligently since this crisis began to 
provide federal resources, financial and educational, to help 
Newark in this time of crisis.
    Residents need to know what is being done to improve 
Newark's water as quickly and effectively as possible.
    So again, I thank her for conducting this hearing and I am 
proud to be here today.
    When I first learned that there were unsafe levels of lead 
in Newark's drinking water, I was shocked. This is the same 
water my family and I drink and use to clean our food.
    It is something I never thought could happen here.
    For decades, Newark was known for having some of the 
cleanest, purest water in the country.
    But aging pipes and inadequate filters have taught us that 
clean water is something we cannot take for granted.
    That is why I am doing everything I can to help my 
constituents during this crisis.
    I introduced the Test for Lead Act into Congress. This bill 
would establish stronger tests for lead in schools across the 
country.
    I have signed onto a letter to the U.S. Environmental 
Protection Agency to make sure we have enough bottled water to 
supply residents until their drinking water is clean.
    I have signed onto another letter to the Department of 
Health and Human Services to make sure none of the tainted 
water ends up being mixed with formula that is fed to infants.
    In addition, I handed out bottled water to constituents at 
two distribution centers in Newark- the Bo Porter Sports 
Complex and the Boylan Street Recreation Center.
    It gave me a chance to meet with people affected by this 
crisis to discuss their fears about the drinking water and 
learn what other solutions might be available to help them get 
through it.
    No issue is more important than clean drinking water.
    And I know that today's hearing will help clarify the 
actions being taken to clean that water and protect the health 
of our residents.
    Thank you!

    Chairwoman Sherrill. Thank you so much, Congressman Payne, 
and thank you for being here today.
    I also just want to recognize Senator Ruiz. Thank you so 
much for coming. And then all the way from Morris County we 
have Mayor Grayzel. Thank you for coming.
    At this time I'd like to introduce the witnesses for our 
first panel. First, we have the County Executive of Essex 
County, New Jersey, Mr. Joseph DiVincenzo.

          TESTIMONY OF HON. JOSEPH N. DIVINCENZO, JR.,

           COUNTY EXECUTIVE, ESSEX COUNTY, NEW JERSEY

    Mr. DiVincenzo. Essex County is very, very fortunate to 
have two great Congresspeople that represent Essex County, 
Congresswoman Mikie Sherrill and Congressman Donald Payne. 
Congresswoman Sherrill, I just want to thank you for hosting 
this meeting here in Essex County. We surely appreciate it. I 
don't remember any Committee hearing here. Maybe Congressman 
Payne could correct me. Did you ever have one of your Committee 
meetings here?
    Mr. Payne. I've had three since I've been in Congress, yes, 
thank you.
    Mr. DiVincenzo. Yes? In Essex County?
    Mr. Payne. In Essex County, yes.
    Mr. DiVincenzo. OK. I'm sorry. Phil gave me wrong 
information, Phil Alagia.
    Chairwoman Sherrill. Members of Congress are often 
underappreciated here in New Jersey.
    Mr. DiVincenzo. Congresswoman Wexton and Congressman Beyer, 
I want to thank you also for being here in Essex County. We 
have a slogan: Putting Essex County First, so welcome to Essex 
County. Don't take it the wrong way that you see three Italians 
to the right-hand side here.
    Essex County has 22 towns. We have over 800,000 people, and 
our strength in this county is our diversity. It just so 
happens there would be three Italians up here, me, Venezia, and 
Scarpelli, great elected officials.
    Congresswoman Sherrill, thank you for holding this 
Subcommittee meeting in Bloomfield, Essex County.
    The presence of lead in our drinking water cause us all 
great concern and creates a public health emergency. The public 
was first alerted to high levels of lead in the drinking water 
in Newark in 2017. Since then, the city has been chemically 
treating the water to help re-coat services lines, passed out 
bottled water, and distribute filters. All of these initiatives 
address the immediate issue of providing clean drinking water 
to our residents.
    However, in the many discussions in which I have 
participated, the only permanent solution is to replace lead 
service lines with copper pipes. Although Essex County does not 
maintain a municipal water system, I recognized that this is a 
public health concern and drastic measures needed to be taken. 
Newark has started a program to replace the 18,000 service 
lines, but it would have taken Newark at least a decade to 
complete the task, given the fiscal restraints of the city. 
This includes digging up the old lines and replacing the lead 
piping with copper piping.
    In order to speed up the process, I realized that Newark 
needed a quick infusion of cash, which would allow the city to 
hire more contractors and get the work done more quickly, 
reducing the amount of time to 24 to 30 months. Because of our 
AAA bond rating we received in 2017, Essex County and our 
Improvement Authority were in a good position to help. With the 
AAA rating, the highest rating available which indicates 
financial strength, we were able to bond $120 million and loan 
that to Newark at a low interest rate. Newark is then repaying 
the bond over a 30-year period and is not charging the property 
owners to have the pipe replacement done.
    We have extended the same program to Bloomfield, Nutley, 
and Belleville, which purchase water from the city of Newark. 
As of today, we know our municipal partners in those three 
communities are still doing their due diligence to determine if 
this program is feasible for them.
    But let's be honest. Replacing lead service lines can be 
and probably will affect all of our communities throughout our 
county, State, and country--sooner or later. Homes built before 
1950 probably were constructed with lead service lines. How 
long will the chemical treatment be effective in coating the 
interior service lines so the lead doesn't leach into the 
supply? Again, the only real solution is to replace lead 
service lines, which can be expensive for any property owner.
    Are there more modern, advanced alternatives that may be 
more affordable and less disruptive? Currently, property owners 
are inconvenienced when the roads in front of their property 
and front yard are dug up. No matter how the pipes are 
replaced, cost will always be the biggest concern. In Essex 
County, we stepped up to the plate and backed the investment 
with a $120 million loan. Senator Cory Booker sponsored 
legislation that makes $100 million available to Newark and 
other municipalities to replace lead service lines.
    So while this Committee investigates ways to streamline the 
lead service lines replacement, we also ask that you consider 
how much it will cost our municipalities and property owners. 
Thank you, Congresswoman Sherrill.
    [The prepared statement of Mr. DiVincenzo follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you, County Executive 
DiVincenzo.
    Next, I'd like to recognize Mayor Joseph Scarpelli of 
Nutley, New Jersey, for 5 minutes.

             TESTIMONY OF HON. JOSEPH P. SCARPELLI,

                  MAYOR OF NUTLEY, NEW JERSEY

    Mr. Scarpelli. Good morning. Chairwoman Sherrill and 
Members of the Committee, thank you for the opportunity to 
speak with you today about lead in drinking water. I hope I can 
enlighten you on some of the issues our small town of Nutley, 
New Jersey and the surrounding municipalities have been 
experiencing.
    Although the issue of lead in drinking water received its 
most recent publicity in Newark, lead pipes exist throughout 
the country and will continue to plague us until all those 
lines are replaced. As a Mayor of a small town, and as a result 
of this recent issue, my knowledge about lead pipes, water 
treatment, and water testing has grown to a level I did not 
expect.
    Despite the known dangers of lead pipes, they continued to 
be installed for years as it was less expensive, more durable 
than other options, and could be easily bent, allowing pipes to 
be shaped to conform to the contours of existing buildings or 
other structures. Lead enters drinking water when plumbing 
materials that contain lead corrode. The most common sources of 
lead in drinking water are from lead pipes, faucets, and 
fixtures.
    It's important to understand the way the water enters the 
home. The water is collected in reservoirs, travels through 
transmission lines to the various utilities. Through an 
interconnection, the water enters a municipality's water mains. 
Attached to the water mains are service lines, which deliver 
the water to each property. The service line has two sections, 
one from the main and one to the curb shut-off and another from 
the shut-off to the house. And then the water passes into the 
internal plumbing of the home.
    Homes with lead service lines are the most significant 
source of lead in the water. If lead concentrations exceed 15 
parts per billion in more than 10 percent of water sampled, the 
local water system must undertake actions to control corrosion. 
Corrosion is a dissolving or erosion of metal caused by a 
chemical reaction between the water and the plumbing.
    Many factors affect the amount of lead that's entering the 
water, including the pH of the water, the water temperature, 
the age of the pipes, how long the water sits in the pipes, and 
the presence of protective coatings inside the plumbing 
material.
    The Newark crisis came to light in 2017 when the city 
reported elevated lead levels. Newark Water had been using 
sodium silicate for corrosion control. How sodium silicate 
works is really unknown, but it definitely raises the pH, 
making the water less corrosive. Somewhere along the way the pH 
of water coming out of the Newark Water System became neutral 
to acidic, which allowed the lead to leach into the water. In 
May 2019, Newark Water switched to zinc orthophosphate for 
corrosion control. Orthophosphate is the more effective 
corrosion control additive but takes months to be completely 
effective.
    The Township of Nutley has two water suppliers. There are 
436 homes that are supplied by Newark Water, accounting for 
less than 5 percent of our total homes and businesses. The rest 
of our township receives water through another supplier. When 
the media and newspaper accounts reported that the water 
filters distributed to Newark residents had failed, there was a 
public outcry, and EPA and NJ DEP took action.
    We in Nutley have participated in many meetings and calls 
with the NJ DEP, the Governor's office, County Executive 
DiVincenzo, Mayor Venezia, and other elected officials for 
updates on Newark Water and the effect on our community. After 
consultation with our professionals, Nutley has taken proactive 
measures to address the situation. We encourage all residents 
to run their water for 1 to 2 minutes each morning. We have 
begun replacing all known lead service lines. Unfortunately, 
recordkeeping over the years has been inconsistent. Therefore, 
we must undertake the labor-intensive work of investigating 
what type of service lines exist beneath the ground. This 
process involves hand digging to see if lead exists on either 
side of the curb shutoff. If lead lines are found, they must be 
removed or abandoned and replaced with new copper line. The 
cost of this process across our entire town will be exorbitant.
    We have also initiated a study to determine the steps 
needed to switch to a different water supplier, providing free 
testing of tap water and free lead testing of children. 
Thankfully, all our testing has been negative.
    Although lead has been our primary concern, our township is 
also dealing with elevated levels of haloacetic acid from the 
same Newark water source. Haloacetic acids are formed when 
disinfectants such as chlorine react with organic and inorganic 
matter in our source water. In July 2019, Newark changed their 
disinfection process. Hopefully, these changes decrease the 
disinfection byproducts. In the meantime, we had to notify our 
residents that drinking the water over many years may increase 
the risk of cancer.
    In conclusion, let me offer some ideas that this Committee 
can look into: technology that offers the ability to detect 
water lines underground without having to excavate; the 
development of new anticorrosive water treatments and 
technologies that offer superior protection from not only lead 
but also prevent copper from leaching into our water supply; 
innovative, cost-effective physical, chemical, or biological 
water treatments that eliminate bacteria, control disinfection 
byproducts, and eliminate any unpleasant color, odor, and 
taste. Our collective goal is to continue to offer all our 
residents clean, safe drinking water. Thank you for your time 
and attention.
    [The prepared statement of Mr. Scarpelli follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you, Mayor Scarpelli.
    And our final witness for the panel is Mayor Michael 
Venezia of Bloomfield, New Jersey. And, Mayor, thank you so 
much for hosting us here in Bloomfield today as well.

              TESTIMONY OF HON. MICHAEL J. VENEZIA,

                MAYOR OF BLOOMFIELD, NEW JERSEY

    Mr. Venezia. Good morning, Chairwoman. I would like to 
welcome you and your colleagues from the House of 
Representatives to Bloomfield, my colleague from Nutley, and 
our County Executive and other distinguished guests here this 
morning. I would like to also thank the witnesses and look 
forward to hearing your testimonies.
    My name is Michael Venezia. I am the Mayor of Bloomfield. 
As everyone in this room knows, over the past couple of years, 
the city of Newark, Townships of Bloomfield, Belleville, and 
Nutley have experienced high concentrations of lead in the 
water to varying degrees. Moreover, this issue is not limited 
to this part of New Jersey but in fact a growing problem 
throughout the State and in the United States.
    Chairwoman Sherrill has given me the opportunity to address 
what the Township of Bloomfield has done to remediate this 
critical issue. We appreciate this opportunity.
    To begin, my town gets its water from a shared system with 
the city of Newark. We are termed the Consecutive Water System. 
We purchase all our water from the Newark Water System. We do 
not have facilities to treat or manage the quality of water we 
receive from Newark's system. However, since 2017, we have been 
testing the quality of water as it comes into the township.
    In the fall of 2017, the township learned it had a lead 
exceedance beyond which was acceptable under Federal EPA 
regulations. While the exceedance level was barely over the 
Federal limit, it still existed and prompted the township to 
take action to resolve the matter as best as possible.
    In November 2017, we held a public hearing to inform our 
residents of the issue and how to protect themselves from the 
potential of lead contamination. At that time, we embarked on a 
program to discover those locations in town where lead existed 
in the pipes. What was clear at that time and remains to this 
day is we did not find lead exceedance levels in the township's 
water mains. We learned that the nature of the water we receive 
from the city of Newark had components that produced a 
corrosive reaction in lead water lines.
    Bloomfield Water Department distributed educational 
material on lead to each one of our water customers. The notice 
also described the potential serious health effects associated 
with lead, as well as sources of lead in drinking water.
    Bloomfield took steps that each resident can take to reduce 
their exposure to lead in drinking water. Bloomfield informed 
their customers via education materials that homes with known 
lead service lines should use extra precaution when flushing 
their water lines. We instructed these customers with known 
lead lines or high lead test results to flush their water for 
up to 5 minutes by running cold water from the tap if water had 
gone unused for more than 6 hours. Users without known lead 
lines were advised to flush their systems for 60 seconds before 
use. Their homes could still contain internal pipes or fixtures 
with lead-containing materials.
    Further, we started working with the city of Newark to 
address the issues of water quality. In August 2018, our second 
round of testing indicated we still had homes in the township 
whose water exceeded acceptable lead levels. We again held a 
public hearing to advise our residents, along with sending the 
mandatory written notification to every household and business 
within the township.
    Additionally, we started providing free PUR water filters 
in an effort to assist our residents who believed that lead was 
in their water. Thus far, Bloomfield has distributed nearly 
3,000 PUR filters to residents, and we continue to this day.
    We also started an in-house township program of replacing 
lead service lines that we discovered in areas where formal 
testing showed lead exceedance of over 15 parts per billion. At 
the same time, we applied for a low-interest loan from the New 
Jersey Infrastructure Bank in the amount of $1.1 million to 
fund more repairs where we found lead service lines. To date, I 
am happy to report that we have repaired over 60 lead service 
lines using mostly township staff. We have also retained a 
contractor to replace an additional 60 lines over the next 2 
months.
    Since November 2017, we have provided self-testing kits to 
any resident who wanted their water tested. Since that time, we 
have submitted over 600 tests, most of them coming back with no 
indication of lead. Any test that comes back in exceedance of 
15 parts per billion for lead, we have or will investigate and 
schedule a replacement of the discovered lead lines. It is 
important to note that the only way to be sure there are lead 
lines is to dig the service connection to the property and 
physically examine the line itself. Clearly, this cannot be 
done easily or quickly, plus, it requires staff or contractors 
to perform.
    In August while Bloomfield was making these repairs and 
providing information to our residents, there was a test of PUR 
water filters used by Newark residents that indicated the 
filters were not working. Frankly, this created a panic.
    On August 19, 2019, we held our third public hearing on 
this matter. In the previous two public hearings, although 
advertised the same way, we had no more than 20 people attend 
those hearings. This hearing had over 150 people in attendance, 
all very upset and concerned about their water quality. 
Clearly, the panic generated by the EPA's demand to distribute 
bottled water in Newark brought greater attention and a lot of 
confusion to Bloomfield residents.
    Bloomfield has taken many steps to improve our water 
quality. Over the past 4 years, we have invested over $10 
million in improvements to our system. We have eliminated dead-
end lines, started a systematic water flushing and valve 
exercising program. We are in the second phase of our major 
water relining program, an investment of over $1 million.
    Furthermore, we are in the final design phase of two major 
improvements to our system: First, we are investing nearly $2.5 
million to change water our supply from Newark's water 
treatment plant at the Pequannock Reservoir to North Jersey 
Water District's system at the Wanaque Reservoir. We believe 
this will help our water quality and provide a redundancy of 
supply.
    Second, we have started a $6 million water meter 
replacement program. The timing of this is significant. During 
installation of the meters, the contractor will inspect the 
exposed water lines for any lead, including lead solder. As 
mentioned before, locating lead in homes is very difficult, and 
many residents do not know if they have lead lines. This will 
help us and our residents know if that type of piping is 
present.
    For Bloomfield, and I imagine all municipalities who are 
facing this problem, the need for assistance is extensive. To 
be sure, financial assistance is a critical matter. We have 
spent over $500,000 in the last 2 years on additional testing 
fees, line replacement, distribution of filters, and every form 
of public information possible--none of which was planned or 
anticipated. When I think of the money that our residents will 
have to pay, let alone the anxiety of not knowing, I believe 
there needs to be some form of assistance from our Federal 
Government. We will literally spend millions in Bloomfield 
alone. We need help. Further, the time that it takes to make 
these repairs or even investigate lines is too long. We need 
both the Federal and State governments to assist us with the 
procurement of additional help from qualified contractors.
    As I mentioned before, we have secured $1.1 million to 
replace our lead lines, but that process took months to secure 
the funding. Our people want repairs now, not to be told that 
they have to wait 8 to 12 months. We need help.
    As I said before, Bloomfield is a consecutive water system. 
We purchase all of our water fully treated from Newark. While 
we continue to work with our neighbors to resolve this matter, 
we hope that the Federal and State governments will continue to 
aggressively assist the city of Newark in fully complying with 
EPA Clean Water regulations.
    We need your assistance now. We are talking about 
millions--actually I would estimate billions--of dollars in 
order to protect our residents. In the meantime, Bloomfield 
has, and will continue to do, everything we can, within our 
water limits as a consecutive system customer to protect and 
advise our customers.
    Chairman Sherrill, I want to just thank you for your time 
and opportunity to be here this morning.
    [The prepared statement of Mr. Venezia follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you so much to our first panel. 
We'll now start--I'm going to recognize myself for 5 minutes of 
questions for the panel, and we'll start with Mr. DiVincenzo.
    So Essex County is supporting the Newark region with 
bonding authority so that property owners won't be charged for 
pipe replacement, which is a critical component to managing 
this problem. I want to clarify. So, County Executive 
DiVincenzo, this will enable homeowners to have both the public 
and private side of their lead pipes replaced at no cost to 
them. Is that correct?
    Mr. DiVincenzo. It's only going on in Newark now. It's not 
happening in Bloomfield, Belleville, and Nutley because they're 
still doing their due diligence there to decide what they're--
it's not working? Now you can hear. This right now is just for 
Newark only because they're the only ones who agreed to take on 
the $120 million loan as far as borrowing it. It does not 
affect Belleville, Nutley, or Bloomfield. And Newark is--all 
the work that's being done is at no cost to the property 
owners.
    Chairwoman Sherrill. Who will be responsible for doing the 
replacements, the water utilities?
    Mr. DiVincenzo. Newark will be responsible for doing that, 
and then they have contractors who they have hired to do that 
work.
    Chairwoman Sherrill. Oh, great. And then, how can 
homeowners who wish to take advantage of this opportunity get 
the ball rolling?
    Mr. DiVincenzo. You know, what they have to do is just 
contact the city of Newark and Newark Water Sewage Commission, 
and contact them and let them know that they're interested.
    Chairwoman Sherrill. And I just want to get--this is just 
for the record so we can get this on the record, but we've 
heard testimony from Mayor Venezia about how expensive the cost 
of lead remediation is. And I assume Essex County has competing 
needs for the bond authority that you've extended. Is that 
correct?
    Mr. DiVincenzo. Yes, we do, but to us this was a priority. 
It's a public health issue, so I decided to--you know, there's 
no way I could make our residents wait for a whole decade for 
this to be completed, so I wanted to shore up the timetable. So 
I met with Mayor Ras Baraka and his team, we met with the Port 
Authority from our team, and we came together and we came up 
with a solution how we can get this thing done within 24 to 30 
months.
    And I can tell you right now it's going very well. The 
replacement, I think they got approximately about 1,400 done, 
maybe more at this particular time. I've seen it in process. 
It's going well. It's going well.
    Chairwoman Sherrill. But if we could find a less-expensive 
way, less-expensive technology to mitigate lead issues, would 
that be helpful?
    Mr. DiVincenzo. Absolutely, anything that's going to save 
money and get it done quicker, we're all for it.
    Chairwoman Sherrill. Certainly. Thank you very much. And, 
Mayor Scarpelli, as part of your duties, you oversee the Nutley 
Water Department. Can you talk to the Committee and walk 
through the process and what it's like for homeowners when they 
get a lead service line replacement?
    Mr. Scarpelli. Sure. Well, one, you have to--like I 
explained before, there's two sections of the service line, one 
from the main to the shut off, which is--normally, that's--the 
city owns or the utility owns, and then one from the shut off 
to the home, which, under normal circumstances, would be the 
homeowner's responsibility. So you either have to dig up that 
lead line on both sides of the shut off and replace it with 
copper or you leave it abandoned, and then it has to be hooked 
up by a plumber into the water meter on the inside of the home.
    Policy decisions going forward by all the municipalities 
would be what do we do on that private side? What do we do on 
the homeowner's side? Newark has taken the initiative to--
they're going to replace that at the cost on the utility. As we 
evaluate what it's going to cost, we'll make that decision 
later on.
    Mr. DiVincenzo. Congresswoman, Newark has decided to go 
from the main all the way to the private, to the water meter 
itself.
    Chairwoman Sherrill. Great. And then, Mayor Venezia, in 
your testimony you described the episode in August where tests 
showed that the PUR water filters distributed to residents of 
Bloomfield, Belleville, and Newark were not working. So I 
understand why this led to a sense of panic. Can you explain 
what the conclusion eventually was about those filters, and can 
we tell the people today that you can usually trust filters 
that are certified to remove lead?
    Mr. Venezia. So when we got the news, it was three filters 
from the city of Newark that still had high exceedances lead 
from the EPA, so in Bloomfield we decided to test five 
homeowners that we knew had lead lines of high exceedance that 
also had PUR filters. And all five of those came back below the 
15 parts per billion that the EPA recommends. And in the city 
of Newark they went--they did extensive testing. I believe 
there was over 300 PUR filters, and I think the number was 98 
percent came back that were under 15 parts per billion.
    Chairwoman Sherrill. Great. Well, thank you so much to our 
first panel. Before we proceed, I'd like to bring the 
Committee's attention to two statements. The first is from NACE 
International, a professional organization that equips 
communities with tools to address the adverse effects of 
corrosion. The second is from BlueConduit, a water 
infrastructure company that uses data analytics and machine 
learning to predict which homes have lead service lines. These 
documents highlight just two of the innovative groups my staff 
and I spoke to in preparation for this important field hearing, 
so thank you for your hard work in addressing an issue that is 
impacting communities across our country.
    Without objection, I'll enter these documents into the 
record.
    At this point, we will begin our first round of questions, 
and the Chair recognizes--oh, I already did my questions, and 
so, next, I would like to recognize Congressman Beyer for 5 
minutes.
    Mr. Beyer. Thank you very much, Madam Chair. And then thank 
you for the invitation to come to New Jersey. It's a pleasure 
to be here and actually be not just on the turnpike but 
actually in the communities. And thank you very much to our 
panel of witnesses. I thought that local elected politics was 
the most difficult forum because you're so close to the people 
and you know exactly what's going on.
    Mayor Scarpelli, in your testimony you talked about the 
technology that offers the ability to detect lead water lines 
underground without having to excavate and hundreds of millions 
of dollars in savings. I just wanted to follow up on comments 
that Chairwoman Sherrill just made about machine learning 
statistical models like BlueConduit and 120WaterAudit, 
precisional hydro vacuuming, and remote sensing techniques and 
recommend all of them to you and to your associates as the ways 
that technology is moving forward to avoid having to dig up to 
find out where the lead line is or not. On one of the 
testimonies we read today was that something like two-thirds of 
the ones you're digging up aren't lead, but you don't know that 
until you've actually dug it up.
    County Executive DiVincenzo, you wrote that the only 
permanent solution is to replace lead service lines with copper 
lines. I know you have a huge county, first-or second-largest 
in New Jersey--at filters, epoxy lining, threading, the slip 
lining, some of the other methods of doing it?
    Mr. DiVincenzo. Yes. Congressman, you know, we're open to 
anything. I have not heard of that right now. The only thing I 
got for my people is replacing the lead line that would be the 
most effective at this time, but I'm willing to learn. I know 
my people are willing to learn to see if it could be done. If 
it could be done quicker and save money, we're all for it.
    Mr. Beyer. The only reason I know to ask you this question 
is the excellent research that Mikie Sherrill's staff has 
already done on this, so we will pass that research onto you--
--
    Mr. DiVincenzo. OK.
    Mr. Beyer [continuing]. Because it sounds like there are at 
least alternatives evolving for this.
    And then finally for Mayor Venezia, one of the startling 
things was that in a lead testing earlier this year in Newark's 
water supply from January 1st to June 30th, they found that the 
level got to 52 parts per billion, which is 3.5 times higher 
than what the EPA says is healthy. So you've had all these 
self-testing kits, but then there was also a note that EPA 
discovered--let me see if I can find the note--that a June 20, 
2019, EPA study, just 4 months ago, said that the current lead 
and copper rule sometimes missed peak lead concentrations so 
that the question again back to Mikie Sherrill's wonderful 
research is, do you have access yet to the many different ideas 
that are coming forward on how you test for lead, everything 
from platinum electrode sensors to carbon nanotube testing?
    This is with a fear that those self-testing kits are not 
going to prove to be fairly accurate.
    Mr. Venezia. Well, so right now what we're doing--so we 
don't have an accurate count of lead service lines in 
Bloomfield right now. There were some fixed in the 1970s and 
1980s, and, as you know in government, records aren't exactly 
always kept the best. It's actually fortunate timing for us 
because we are going around and fixing each house's water meter 
reader. And as the contractor that's doing that is going to 
look for us to see if there's a lead service line, and then 
we'll go out and fix it for the homeowner. So we don't have an 
accurate count--so I know like some towns are using every house 
built before 1950 where that's kind of not an accurate count 
because you don't know if the homeowner did something on their 
own.
    But yes, I saw Congresswoman Sherrill's new document and 
the new way of testing, and that's something we could look into 
in the future.
    Mr. Beyer. OK. Great, great. I don't want to suck up to the 
Chairwoman of our Committee, but I want to say it's wonderful 
that she's gathered all this data to use in New Jersey and 
throughout the country, and, Madam Chair, I yield back.
    Chairwoman Sherrill. That's kind, but I have to give most 
of that credit to my staff for doing that, but thank you very 
much.
    Next, I would like to recognize Congresswoman Wexton, the 
former Tosini, Ms. Tosini, for 5 minutes.
    Ms. Wexton. Thank you, Madam Chair, and thank you to the 
Early Childhood Center at Forest Glen for hosting us. I know 
that we can be kind of disruptive when we come to town, so I 
very much appreciate your allowing us to use this fine venue. 
And thank you to the panelists for coming.
    It is quite alarming to hear what the residents of Essex 
County have been faced with, and we know that, as time goes by, 
it's not a matter of if, it's when other municipalities are 
going to be going through the same thing. This has become a 
part of the public awareness after what happened in Flint and 
what's happened here, but even in our own home State of 
Virginia, we have many, many places that have elevated levels 
of lead that are going to need to be dealt with.
    And experts tell us that as long as lead service lines 
remain in the ground and more proactive measures aren't taken 
to reduce risk, one American city after another is likely to go 
through what you guys have been through.
    I know that there are measures that can be taken with 
chemical additives to change the acidity or alkalinity of the 
waters, and there are innovative measures with epoxy coatings 
for these pipes as well. But those seem like second-best 
measures, and we don't know what the collateral impacts of 
those can be. So it seems that removing the pipes is really the 
best and only way to make sure that the risk is averted.
    And my question for all of you because you have had to deal 
with this and be on the frontlines and kind of the tip of the 
spear for the rest of us in the country is if you had one piece 
of advice for executives or for leaders in other towns and 
counties where this will become an issue, what would that piece 
of advice be?
    Mr. DiVincenzo. First of all, Congresswoman, I want to 
clarify because Congresswoman Wexton--we don't--the county 
doesn't control the--we don't have a water system that we 
actually control. That's all done by the municipalities and 
stuff, the 22 municipalities. But the thing--what I would say 
is, you know, we have been very fortunate here is, you know, 
we're one county, 22 towns, and we're able to be able to 
communicate on a daily basis and what's going on. And when 
there is an emergency in any situation, no matter what town is 
there, we all get together make sure we do the right thing 
here.
    And I have to tell you the leaders of these particular 
towns, you could hear from Nutley or from Bloomfield and also 
from Newark that they've been doing the right thing.
    Mr. Scarpelli. I think the first piece of advice would be 
because of both Newark and in Flint it was the water chemistry 
that got changed that caused the problem. So the first thing 
would be to make sure that you don't change that chemistry, you 
don't mess with it. If it's working, keep it the way it is.
    The second piece of advice is to be proactive. When you 
have your water departments going out making repairs and they 
encounter lead lines, replace them then. That is something 
we've been doing for the last 5 to 10 years in Nutley, and 
we'll continue to do that. We're just going to have to move up 
the process now because of the crisis. But be proactive, change 
those lines out as you come across them.
    Mr. Venezia. Yes, just, you know, following up what Mayor 
Scarpelli said, you know, being proactive communication-wise 
and just getting as much information out there about the lead 
service lines, the lead in your water, and being there for the 
public obviously, you know, like one of our community meetings 
we had over 150 people there, and I literally sat there for 3 
hours just taking every question possible. But it worked. You 
know, the more information you get out there to the people, the 
more they'll understand and see that you have a plan and what's 
going on.
    Ms. Wexton. Thank you. I have no further questions at this 
time.
    Chairwoman Sherrill. Thank you, Congresswoman Wexton.
    Next, I'd like to recognize Congressman Payne for 5 
minutes.
    Mr. Payne. Thank you, Madam Chair.
    Let me just first say that when this initially was found in 
a school in Newark, I had just come back from Flint, Michigan, 
observing the issue around water there. And I was in the 
company of several Mayors from the 10th District, and I 
expressed to them my concern of what I saw in Flint, that they 
needed to start really paying attention and checking their 
water systems. And, lo and behold, that Tuesday it was found in 
a school, Louise A. Spencer, in Newark. And it had been an 
issue that had been going on for quite some time. And what they 
were doing at the Newark school system was flushing the lines 
in the morning, but I think over a period of time, you know, 
staff changes, people get a little more complacent, and then, 
lo and behold, the issue was brought to the attention of the 
residents of Newark.
    And so the other thing that, you know, I just want to make 
clear is when we talk about the source of the water, Newark's 
source, the reservoir is fine. It is when it comes down through 
the system and hits the lead service lines is where the issue 
becomes. In Flint, the water source was changed and was an 
impure source of water, so from the source Flint had issues. 
Our issue starts at the service lines going into the homes.
    I'd just like to once again commend our local elected 
officials for their proactiveness in supporting their towns on 
this issue and also to the County Executive for looking and 
seeing an issue and stepping in and helping find a solution. 
It's not the first time that he's done that for the city of 
Newark. In another administration, he was able to support that 
community. But it just goes to show when people ask, you know, 
what county government does, these are two really good examples 
of what county government can do in helping support the 
communities in which they find themselves.
    So I just want to commend the County Executive once again 
for stepping up and stepping in and filling a void where the 
residents and the administration in Newark weren't sure how 
long this was going to take.
    My one question would be to the Mayors. So in light of 
this, you are looking at other sources of water as opposed to 
the Newark system?
    Mr. Venezia. So we are in the process of switching. So far, 
60 percent of our residents in probably about 18 months to 2 
years will be switched over to North Jersey District water 
supply, which gets their water from the Wanaque Reservoir. 
We're coming up with a 5- to 10-year plan to be 100 percent to 
the Wanaque Reservoir for the North District water supply. We 
were able to connect at one point in the township. That was an 
abandoned gas station that the township now owns, and we will 
be putting a water pumping station at that location.
    Mr. Scarpelli. Congressman, yes, so we have the 436 homes 
in Nutley receive Newark water. The rest of the homes receive 
Passaic Valley water. The issue with those homes that are 
receiving Newark is a pressure issue. There's not enough 
pressure for the Passaic Valley water to get up to those homes. 
They're on higher elevations. Newark has a little increase in 
pressure, so it's been, you know, 100 years that Newark water 
has supplied those homes. We're in the process to see what we 
have to do to switch everyone over to Passaic Valley water. 
That's what we're doing.
    Mr. Payne. Madam Chair, I yield back.
    Chairwoman Sherrill. Well, thank you so much to our 
witnesses for your testimony today. I know that many of us here 
on this panel and in Congress have spoken to Representative 
Kildee, who serves Flint, Michigan, and I think the lack of 
attention to the problem there by public officials was 
incredibly disheartening. So to see the attention that this is 
getting here in New Jersey is impressive, and I sincerely 
appreciate it. Thank you very much to everyone who was here 
today.
    So we're now going to have a short break while we seat our 
next panel of witnesses. Thank you.

    [Recess.]

    Chairwoman Sherrill. Welcome back. At this time I would 
like to introduce our second panel of witnesses. First, we have 
Dr. Diane Calello. Dr. Calello is the Executive Medical 
Director at the New Jersey Poison Information and Education 
System.
    If you could please take your conversations into the 
hallway as we begin our next session. Thank you.
    She is also an Associate Professor of Energy Medicine at 
Rutgers University.
    Dr. Marc Edwards is a Distinguished Professor of Civil and 
Environmental Engineering at Virginia Polytechnic Institute and 
State University.
    Mr. Michael Ramos is a Chief Engineer at Chicago Public 
Schools. He is also the inventor of the Noah Auto Flushing 
Device for Lead Mitigation.
    And last, we have Dr. Eric Roy, the founder of Hydroviv, a 
home water filtration company based in Washington, D.C.
    So we will start with Dr. Calello.

                 TESTIMONY OF DR. DIANE CALELLO,

                EXECUTIVE AND MEDICAL DIRECTOR,

          NEW JERSEY POISON INFORMATION AND EDUCATION

               SYSTEM, AND ASSOCIATE PROFESSOR OF

             EMERGENCY MEDICINE, RUTGERS UNIVERSITY

    Dr. Calello. Thank you. Good morning, and thank you to 
Chairwoman Sherrill and Congressman Beyer, Congresswoman 
Wexton, Congressman Payne, and everyone convened here, for 
inviting me to speak on the health effects of lead exposure.
    So, as a medical toxicologist, I have seen firsthand many 
patients with the health effects of lead exposure. And, as a 
pediatrician, I've witnessed the unique effects of lead on the 
young child. As Director of the State's only Poison Control 
Center, we have advised and assisted in several drinking water 
lead contamination incidents, most recently in our own city of 
Newark. I'm very glad to be here today to find the way forward 
for this critically important issue in public health.
    Lead is ubiquitous in our environment. It is even found in 
the Earth's crust. It's been with us since the beginning of 
recorded time. It is thought to have poisoned Roman aristocrats 
and metalworkers in colonial America, and many sources in our 
environment have been removed, for example, leaded automotive 
gas and leaded food cans with leaded solder. So advances have 
been made, but hazards remain. And this includes, first and 
foremost, deteriorating residential lead paint in older homes 
but also cultural sources, occupational hazards, and of course 
drinking water.
    At the New Jersey Poison Center, most cases with lead 
poisoning we manage are in children exposed to that residential 
paint who suffer adverse developmental consequences. Although 
paint for interior residential surfaces was banned in 1976, 
lead paint remains in older homes. And when it peels or falls 
into disrepair, it fills the child's home with a fine 
particulate dust that gets first onto their hands and then into 
their mouth. You know, this is a 2- or 3-year-old child.
    Children in these situations have very elevated lead levels 
and demonstrate developmental delay, attention deficit, 
behavioral and cognitive challenges, conduct disorder, and loss 
of intellect. They may need hospitalization and even chelation 
therapy, which removes lead from the bone but does very little 
to reverse the effects on the brain.
    Children like these have very elevated lead levels in the 
blood, far above the CDC (Centers for Disease Control and 
Prevention) threshold of 5 micrograms per deciliter. However, 
it has become increasingly clear that even very small 
elevations in blood lead are harmful to the developing brain. 
This was demonstrated in the work of Canfield in the New 
England Journal of Medicine in 2003, who showed that in a 
population, the higher the blood lead levels in that population 
of children, the lower the IQ. And the IQ loss per point of 
blood lead level was actually steepest at the lowest range. So 
a child with a blood lead level of 30, which is very elevated, 
is worse off than a child with a lead level of 10, but a lot 
more damage is done in that first 10 points than in the 
subsequent 20. And this has been demonstrated by multiple 
studies and can be seen in figure 1 of my written testimony. 
For this reason, the CDC lowered the threshold from 10 to 5 in 
2012, and further lowering is anticipated. These small blood 
lead level elevations are precisely what has been reported with 
lead contaminated municipal drinking water.
    So both in Washington, D.C., and Flint, Michigan, the 
cities experienced a rise in the number of children with 
elevated lead at the time of water contamination. Both Dr. 
Edwards to my right and Dr. Hanna-Attisha demonstrated that the 
prevalence of children with elevated levels doubled or even 
tripled after their water lead level rose. Of note, no child 
had severely elevated levels as a result of drinking water 
alone, and no child required hospitalization. But lead-
contaminated drinking water can feasibly be expected to cause 
more children to have higher lead levels and subsequent loss of 
IQ.
    A common misconception is that lead in drinking water is an 
immediately life-threatening exposure, and that is not the 
case. And that's an important message to communities who have 
fear about whether they are acutely poisoned or at acute threat 
at this moment to their life.
    So risk communication is challenging in these situations 
and requires very careful messaging. People in cities with 
drinking water lead acquire attentive guidance about preventing 
further exposure from all sources, including flushing drinking 
water--many of the strategies we have talked about already 
today--logistics of obtaining bottled water, but also 
minimizing paint dust and other sources of lead in the 
environment. But these communities also require attentive and 
cautious reassurance and recognition of any developmental 
effects as they arise. Knowledge is power, and if a child has a 
delay, catching it early and intervening can make a tremendous 
difference.
    Here in New Jersey we have higher lead levels than the 
national average, and the city of Newark has the greatest 
number of children with high lead levels than the other cities. 
Now, some of that is because many more children in Newark get 
tested, but we know that the problem is certainly in the city 
of Newark. Sources vary, but this is mostly attributable to 
lead paint. The contribution of drinking water has not yet been 
determined, and more recent statistics are not yet available. 
Families can receive services through the city, as well as our 
Poison Control Center, regarding how to mitigate exposure to 
lead in the environment.
    Newark also has important resources like funded relocation 
housing and a partnership for lead-safe children. But as lead 
levels continue to be elevated, environmental hazards continue 
to persist, and the threshold continues to appropriately be 
lowered. Resources Statewide and nationally risk depletion.
    Municipal water crises are complicated and require a great 
many decisions, often in the context of fear, outrage, and 
distrust. How do we fix the water? How do we contact citizens--
by phone, by door to door? What do we tell them? Should we use 
filters? What kind? Where can people go for information? Should 
we offer universal testing? Who is most at risk? So many 
questions.
    I urge the Subcommittee to consider one advance in this 
area. Aside from all the important advances we're talking about 
to remove lead from water is to craft a municipal playbook for 
cities in the future who face water crises, deploying the right 
expertise at the right time can make a tremendous difference. 
And Flint was not the first city to face this issue, and Newark 
will certainly not be the last. And formal guidance for cities 
I think would be tremendously useful.
    So, in conclusion, while drinking water is only one source 
of lead exposure, removing this hazard is imperative, so, too, 
is addressing other sources. And the prioritization of lead 
hazard reduction is complex, but we must envision a future in 
which our water and our homes are leadfree. Thank you.
    [The prepared statement of Dr. Calello follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you so much. And before we move 
to our next witness, I simply want to recognize Assemblyman 
Caputo. Thank you so much for coming today, sir. Thank you.
    And next, we're going to hear from Dr. Marc Edwards, who is 
the distinguished professor from VPI.

                 TESTIMONY OF DR. MARC EDWARDS,

              UNIVERSITY DISTINGUISHED PROFESSOR,

              CIVIL AND ENVIRONMENTAL ENGINEERING,

      VIRGINIA POLYTECHNIC INSTITUTE AND STATE UNIVERSITY

    Dr. Edwards. Thank you. I'll start by noting that this is 
the fifth time I've testified to Congress on this issue in 
relation to lead and drinking water crises. The first two were 
in relation to Washington, D.C., in 2004, 2010, and then twice 
again in 2016 in Flint, Michigan, and I'm really optimistic 
that today's hearing related to this water lead problem in New 
Jersey is going to help bring an end to our ongoing national 
nightmare.
    So I want to start by noting that approaches to dealing 
with the lead in water problem around the world vary. For 
instance, in Australia they tell consumers frankly that they're 
on their own and that they don't consider lead in water to be a 
significant public health threat. And other countries take some 
responsibility for protecting consumers from lead.
    But our approach in the United States has been the worst of 
all worlds. Essentially, too frequently, people are being told 
that they're being protected from lead in water when that's not 
the case. And when you couple that with our public health 
warnings that there's no safe level of lead exposure with 
warnings of brain damage and other horrific health 
consequences, you have a basis for undermining trust and panic 
in water crises, and that's what happened over and over again.
    And, unfortunately, we have severely damaged the public 
trust and public confidence in water supplies in the United 
States as a result of this problem. Too many of our poorest and 
most vulnerable citizens are spending too much of their 
precious financial resources worried about lead in water, 
testing for lead in water, protecting themselves, purchasing 
filters. And our Nation's failure to upgrade this antiquated 
infrastructure and to uphold Federal law has really effectively 
ended trust in potable water in this country as we once knew 
it.
    And the following steps could really help go a long way 
toward restoring justifiable trust in U.S. public water 
supplies and prevent future water crises. So, first and 
foremost, the culture associated with implementation and 
enforcement of this law in the United States has really been 
just a national scandal. Whatever the provisions of the new 
lead and copper rule are, it must be enforced, and it must be 
taken seriously. And, as an aside, I was very pleased to see 
that the U.S. EPA was not as complicit in the problems that 
occurred in Newark as they have been in water problems that 
occurred in the recent past.
    The second issue is that the current official language that 
there is no safe level of lead exposure should be reconsidered. 
We routinely identify consensus standards of human exposure for 
other contaminants, below which health risks are considered 
relatively low, and we should do the same for lead. The no-
safe-level-of-lead-exposure language is actually proving to be 
an impediment to fixing the problem at its core, which is 
replacing lead in our plumbing, and is increasing dependency on 
bottled water and filters.
    We also must eventually identify where these millions of 
lead service line pipes are and where they are not, and this is 
a major, major challenge. Consumers have to be made fully aware 
when they have to live with this hazard, and they should be 
given some relative peace of mind if they do not have a lead 
pipe in front of their house. And ultimately, these lead pipes 
do have to be replaced.
    But until that day comes--and I'm resigned to the fact that 
it's probably not going to happen in my lifetime or my 
children's lifetime at our current rates of pipe replacement--
we do have to do a better job of protecting consumers with 
filters, with bottled water, with corrosion control, and 
flushing strategies. And the U.S. EPA and HUD (Department of 
Housing and Urban Development) have been investing in research 
in these areas that can help us improve our response.
    Thank you.
    [The prepared statement of Dr. Edwards follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you so much. And again, I would 
just like to recognize our School Superintendent Sal Goncalves. 
Thank you so much for joining us. Thank you.
    And next, we have Mr. Michael Ramos, who is the Chief 
Engineer at the Chicago Public Schools.

                   TESTIMONY OF MICHAEL RAMOS,

            CHIEF ENGINEER, CHICAGO PUBLIC SCHOOLS,

         AND INVENTOR OF THE NOAH AUTO FLUSHING DEVICE

                      FOR LEAD MITIGATION

    Mr. Ramos. Good morning, everyone. Thank you for holding 
this hearing today and inviting me here to testify. My name is 
Michael Ramos, the inventor of Noah, the Auto Flusher. I have 
over 30 years' experience in building automation, electrical 
engineering, direct digital control, and HVAC. I'm an Engineer 
for Chicago Public Schools and Chief Engineer of Von Steuben 
High School.
    I'm going to talk to you today about the Noah device. Noah 
was originally designed to be attached to the lead service line 
in my home to automatically flush for 3 minutes every 3 hours. 
In 2016, I began following the Flint water crisis and quickly 
discovered water standing inside pipes for long periods of time 
can generate high lead and copper levels. I also discovered 
water treatment plants across the country use orthophosphates 
to coat the pipes' interior as a measure of corrosion control. 
In order for the orthophosphate to be effective, it has to be 
routinely applied by running water through the pipes.
    I used this information to create an auto flusher that I 
attached to the main lead service line of my home. I believe 
this would be an effective way to prevent stagnation and 
effectively apply and maintain a protective barrier of 
orthophosphates for my family.
    Later that year, Chicago Public Schools (CPS) began testing 
all schools in the district. Initial test results showed that 
37 percent of the schools had at least one fixture test above 
the 15-part-per-billion action level. As an engineer in the 
school system, it is my responsibility to provide a safe 
environment for all who attend Von Steuben. I took it upon 
myself to modify my residential design into a retrofit device 
that can be installed in drinking fountains. Installing 
directly into a fountain utilizing its existing plumbing meant 
that I could supply fresh, clean, lead-free water to my 
students at all times. For the last 3 years, students at Von 
Steuben have been using the fountains to refill their bottles 
and not relying on single-use bottled water.
    I'm going to quickly go over the before and after results 
of two pilot programs that I participated in with CPS. I 
donated and installed the devices in these schools myself. Orr 
High School, before Noah, its average reading was 45.65 parts 
per billion, and its highest reading was 530 parts per billion. 
After installing Noah, today, the average reading is 0.840, 
less than 1.
    Onahan Elementary School, before Noah, its highest reading 
was 520 parts per billion; after Noah, 0.528, less than 1 part 
per billion.
    Katie Brandt this was a residential install. In her home 
she had readings ranging between 4.9 and 17 parts per billion. 
After Noah was installed, 0.001, no detection.
    We can test these locations today, tomorrow, next month, 
next year. The results will always be the same, less than 1.
    In closing, Noah's an effective, practical solution in both 
residential and public buildings everywhere. It works by doing 
two things: It doesn't allow water to stagnate in the pipe; and 
two, it applies and maintains the orthophosphate corrosion 
control. It is also 100 percent maintenance-free, requires no 
filters, strainers, batteries, or clocks to program.
    In closing, I would like to ask for the funding for a 
controlled residential in-school pilot program in Newark, New 
Jersey, and Flint. The funding values will be determined by 
controlled program needs. Thank you, and I look forward to 
answering any questions you might have.
    [The prepared statement of Mr. Ramos follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you so much. Next, we are going 
to hear from Dr. Eric Roy, the founder of Hydroviv.


                   TESTIMONY OF DR. ERIC ROY,

                       FOUNDER, HYDROVIV

    Dr. Roy. Thank you, Chairwoman Sherrill and Members of the 
Subcommittee, for your invitation to testify on how the Federal 
Government can better support scientists, entrepreneurs who 
develop technologies that detect, predict, and fix water 
quality issues like the one currently underway in Newark.
    While today's testimony is informed by my experience 
working at companies that were either funded by or sold 
technology to EPA and Department of Defense, I'm not speaking 
on behalf of any of these employers or organizations.
    Hydroviv is a water filter company that I started in 
response to the Flint lead crisis. At the time, I was leading 
product development for a company that develops technology used 
by first responders and military personnel to detect chemical 
warfare agents and other harmful chemicals. I was able to use 
my experience as a chemist in connections and manufacturing to 
develop custom water filters that were specifically designed to 
handle the high lead levels in Flint, and I donated these 
filters to families and child-centric organizations. This 
wasn't really intended to be more than a charitable effort run 
from my apartment, but as public awareness of water quality has 
grown, Hydroviv's scope expanded, and the company was able to 
air on Shark Tank this past year.
    From the experience gained throughout my career, I've seen 
how companies working on water quality face barriers in 
commercializing their technology that are not encountered by 
those that develop solutions for other national interests like 
defense and homeland security. In this testimony, I will focus 
on two specific areas where I believe the Federal Government 
can help reduce these barriers.
    First, the first barrier I want to talk about today is a 
lack of access to the problem. For these high-priority 
interests, it would be beneficial for Federal agencies to take 
an active role in aligning academic, government, and private-
sector personnel in the same way that they do for defense and 
homeland security priorities. This deliberate alignment is 
different than what I've encountered with Federal agencies that 
work on water.
    An example relevant to this hearing has to do with the 
water filters that the city of Newark distributed to families 
with high levels of lead in their water. Despite these filters 
being rated to remove lead, at first they were found to be 
surprisingly ineffective, and scientists from various 
government and academic institutions are actively conducting 
research on why this was the case. However, according to the 
scientists that I've spoken to, there's no component of their 
work that focuses on developing more effective filtration 
technologies, which is the actual problem that we need to 
solve.
    The results of these studies won't necessarily be published 
fully for months or even years, which means that scientists and 
engineers who innovate on filtration technology have to wait 
before they can try and recreate the problem and attempt to 
find a solution to it. This is a missed opportunity.
    The second thing I want to discuss today is a cost barrier 
faced by companies that transition technology from the 
laboratory to the community where economies of scale can fully 
be realized. Cost-effective third-party validation is a major 
barrier to entry for water-centric technologies, especially 
products that are aimed at the consumer. Without cost-effective 
validation, technology developers struggle to establish their 
products as credible and distance themselves from the snake oil 
products that pollute this market.
    The organizations that government bodies point to for 
product validation are often cost-prohibitive for small 
companies and therefore act as a barrier to market entry. For 
security interests, the Federal Government reduces these 
barriers by establishing cost-effective programs and proving 
grounds that allow technology companies to validate their 
products under laboratory and real-world conditions.
    If this type of thing existed for companies working on 
water quality, a successful trial would establish trust and 
credibility between that company and the other stakeholders, 
and it would also open up outside investment. In turn, there 
would be an established path for credible diagnostic, 
predictive, and treatment technologies to go to market, and 
these innovation areas would become more attractive to outside 
investors. The problem would be solved.
    I've seen how the Federal Government can support companies 
that develop technology for national priorities, and I believe 
that there's a real opportunity to do this for water quality.
    I want to finalize by thanking everyone for their time, and 
I'd be happy to answer any questions and/or work with Members 
of the Subcommittee on solutions to barriers that I raised 
today. Thank you.
    [The prepared statement of Dr. Roy follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Sherrill. Thank you very much. I'll now 
recognize myself for 5 minutes for questions.
    Dr. Edwards, I want to talk about what has happened in New 
Jersey. Some people have lived in their homes here and their 
neighborhoods for a generation, and they didn't change anything 
at their property but suddenly one day they're learning the 
water is unsafe to drink. So can you tell me for the record 
what changed that led to these higher levels of lead exposure?
    Dr. Edwards. Yes. As was the case in Washington, D.C., 
changes were made to the water supply to try to comply with 
other U.S. EPA regulations. And those changes, which reduced 
the risk from disinfection byproducts and bacteria, also 
increased the risk from lead. And in particular what the 
utility did was to try to lower the pH, make it more acid in 
order to reduce the danger from the bacteria and the 
disinfection byproducts. And, as expected, that reducing the pH 
or increasing the acidity made more lead to go into the water.
    Chairwoman Sherrill. Thank you. And, Dr. Calello, a 
pediatrician in Flint played a big part in exposing the Flint 
water crisis, but she said she ran into roadblocks when she 
sought blood lead data from local officials. So how can we make 
sure that you get all the data you need to serve children's 
health?
    Dr. Calello. Thank you for that question. I think it's 
important that lead levels drawn on children in general and 
even just the whole population be contained in a central data 
repository. So currently what we have in New Jersey is a pretty 
robust system that tracks lead levels in children but primarily 
abnormal lead levels. And so I think when we want to assess 
risk, it's important not only to know what child had a lead 
level of 6 or 12 or 40 but also how many in that area had 
undetectable lead levels or, you know, even just small 
elevations.
    And I think every State does this a bit differently, but 
requiring that the collection of lead levels be a reportable 
and clinical entity that is contained in a central--ideally, a 
national data repository would help a lot.
    Chairwoman Sherrill. Thank you. And how often should at-
risk families get tested?
    Dr. Calello. I think as soon as an exposure is identified, 
that testing should happen right away. And although we have 
centered primarily on testing children and pregnant women, 
because those are certainly the populations most at risk, I 
think it helps for people to know, if they're very concerned 
about their lead exposure to get a level tested.
    So Dr. Edwards made an important point about there being no 
safe level of lead exposure, and that's not really true. I 
mean, our bodies handle a little bit of lead in our 
environmental the time, but if lead accumulates in the body and 
shows up in the blood, that's where we say it's really not safe 
to have it there, at least that's when I say there's no safe 
level. That's what I'm referring to.
    So a test should happen right away, I think when the 
exposure is discovered. And then, you know, we often test 
children every 9 to 12 months in early childhood. If the 
exposure is ongoing, that testing should be more like every 3 
to 6 months, and it's kind of I think just determined how much 
lead is in the environment that we have to monitor, so it's 
case-by-case.
    Chairwoman Sherrill. Thank you. I yield back, and now I'd 
like to recognize Congressman Beyer for 5 minutes.
    Mr. Beyer. Thank you, Madam Chair. And again, thank you all 
very much. This has been very educational this morning.
    Dr. Calello, first of all, thank you for helping us 
understand the impact of lead in the blood and its impact on 
IQ. It was very interesting. And I just want to point out that 
a difference of 7 IQ points is a lot. It doesn't sound like a 
lot, but that's the difference between whether you go to 
college or not, what kind of college you go to, just 
significantly moves where you are in the overall population.
    But in talking with some of the people who have visited 
here today--talked about in the city of Newark, not in Nutley 
or Bloomfield--but that they have had independent testing as 
high as 400 parts per billion of lead. Is there anything from a 
poison control perspective that you can offer to make sure that 
people feel that the respective governments are testing 
appropriately?
    Dr. Calello. The role of the Poison Control Center is to, 
you know, operate a 24/7 hotline to people with questions. And 
whether it's in the State of New Jersey, we actually did 
partner with the Department of Health to make sure that any 
information they wanted disseminated through the city was 
available at the Poison Control Center, so if any citizens 
wanted to know is my address affected, how can I get testing, 
where can I pick up bottled water, where can I get my child 
tested. So here in New Jersey I think the State Poison Control 
Center really played an important information disseminating 
role. That sometimes has been the case elsewhere and not 
always. Does that answer the question?
    Mr. Beyer. Is there a connection between the lead poisoning 
and Legionnaires' disease?
    Dr. Calello. No. You know, both can be a waterborne 
illness, but lead and Legionnaires' disease are not connected--
--
    Mr. Beyer. OK.
    Dr. Calello [continuing]. You know, in the body.
    Mr. Beyer. And someone just pointed out that many of the 
deaths in Flint were due to Legionnaires' disease.
    Dr. Calello. Right.
    Mr. Beyer. But these are co-determined. It's not causal I 
guess?
    Dr. Calello. Correct. You know, water can be contaminated 
with a lot of different things, and I think there was some co-
contamination. But Dr. Edwards could probably speak to that a 
little more.
    Mr. Beyer. And do we need to worry about copper? If we've 
solved the lead problem as you imagine, is copper leaching an 
issue for all of us and our kids?
    Dr. Calello. Copper does not have the developmental effects 
at very low levels as far as we know scientifically. Copper in 
very high levels can cause health problems as well, organ 
damage and what have you, but it's not been observed clinically 
in drinking water contamination to cause illness.
    Mr. Beyer. OK. All right. Thank you. Mr. Ramos, thanks for 
telling us all about the Noah device. Is the orthophosphate 
linings required ahead of time for Noah to be effective?
    Mr. Ramos. As long as the districts are applying 
orthophosphate at the treatment plant, Noah could deliver that 
orthophosphate to the residents and the schools.
    Mr. Beyer. So those have to go together essentially?
    Mr. Ramos. Yes. Yes.
    Mr. Beyer. And you said that in an attempt to hold costs 
down you weren't running Noah on weekends, but you also said 
earlier that if the water sits for more than 6 hours, it starts 
to eat away at the orthophosphate. Why wouldn't you----
    Mr. Ramos. That's correct.
    Mr. Beyer [continuing]. Run it 24 hours, 7 days a week?
    Mr. Ramos. For residential, I would recommend that we do 7 
days a week, 24 hours, but in a school, what I did at Von 
Steuben is I hooked all the devices up to the hallway lighting 
circuit, so it turns on only when the building is occupied. But 
given enough time having the system running, there will be 
enough coating of orthophosphate that it can survive over the 
weekend. Monday morning, we turn the lights on, the system 
activates and starts replenishing it with fresh water and the 
orthophosphate.
    Mr. Beyer. And you did mention cost. What would it cost a 
home to have a Noah device?
    Mr. Ramos. I'm ranging around $250.
    Mr. Beyer. OK. Great. Great, thank you.
    Mr. Ramos. And they last for years. Tomorrow's the 3-year 
anniversary of the very first one installed at Von Steuben High 
School, and it's still running today 3 years later.
    Mr. Beyer. OK, great. Thank you. And one last question. Dr. 
Roy, you talked about how Federal agencies, Federal Government 
needs to do this alignment of the scientists and bureaucrats, 
civil servants to make this happen faster. Can you tell the 
four of us who go back to legislate what that legislation would 
look like?
    Dr. Roy. Of course. I think there's really two ways that 
this could happen. I think for long-term priorities there 
should be programs set up that are kind of longitudinally based 
that, you know, around infrastructure-type stuff so you can 
have program managers that, you know, actively work to put 
those people in a room and develop long-term solutions.
    For short-term priorities what I would recommend is some 
sort of--you know, the funding instrument is--are like prizes, 
and that allows technology developers to come in and pitch 
their prize, and they're able to kind of matriculate through. 
And the winners--it's not about the money; it's about the 
access to the problem and an opportunity to solve it. And I've 
seen this work multiple times for security and drug 
interdiction-based national priorities.
    Mr. Beyer. Thank you, Madam Chair.
    Chairwoman Sherrill. Thank you. I'd now like to recognize 
Congresswoman Wexton for 5 minutes.
    Ms. Wexton. Thank you, Madam Chair. I want to thank the 
panelists for coming today and sharing with us your knowledge 
about this issue. And I would really be remiss if I did not use 
this opportunity to talk a little bit about the EPA's proposed 
changes to the lead and copper rule.
    Dr. Calello, in 2012 the CDC reduced the threshold level of 
blood lead level that was of concern for it to be elevated from 
10 micrograms per deciliter to 5, is that correct?
    Dr. Calello. Yes.
    Ms. Wexton. And, you know, so that was in 2012. At that 
time the EPA's lead parts per billion was 15. And when the EPA 
announced that they were going to revisit that rule, a lot of 
us hoped that, given the changes that the CDC had had, that the 
EPA would also reduce that threshold. And they declined to do 
that. The trigger level in their proposed rule is still 15 
parts per billion.
    Not only that, they would allow more time for water 
sanitation authorities to replace lead pipes even when that 
trigger level is reached. They are taking away the 7 percent 
requirement of replacement per year and replacing it with a 3 
percent requirement. So instead of taking 13 years to replace 
all of the lead pipes in a sanitation authority area, it would 
take 33 years. That is a couple generations of young people who 
could be living with elevated levels of lead in their blood and 
have the collateral consequences of that.
    Dr. Calello, could you speak a little bit--I know that you 
can't draw a straight line from 15 parts per billion to 5 
micrograms per deciliter or anything like that, but could you 
speak a little bit to the long-term consequences in terms of 
brain development and development overall IQ points and 
everything that happens with these elevated levels of lead in 
children's systems?
    Dr. Calello. Just to repeat the question, it's two comments 
on the long-term intellectual effects of low lead levels in the 
blood?
    Ms. Wexton. That's correct.
    Dr. Calello. OK. Thank you. You know, the data behind 
looking at is a child with a lead level of even 4 or 3 below 
the threshold going to potentially have a developmental 
consequence comes from large populations, so it's impossible 
scientifically to demonstrate in a given child that they were 
normal before they had exposure, and they had an--you know, a 
developmental event as a direct result of lead exposure. It's 
just very difficult to do in particular because most children 
when they have discovered elevated blood levels are in the 
first 2 years of their life.
    So what we rely on are large, reproducible population 
studies that demonstrate, again, in children with elevated--
populations where children have elevated lead levels, and some 
of them are just in that very low range, those children in that 
same group also have lower IQ. And that is controlled for 
things that also affect intellectual testing like parental 
education and parental IQ and socioeconomic status. And so it 
is a pretty good indicator at least on a large population-based 
level of IQ deficits at low levels--I mean, at small 
elevations.
    But when I see a child with an elevated lead level, whether 
it's 5 or 10 or 40 or 60, I tell their parents that there is no 
way to predict exactly what's going to happen. Our first job is 
to get the lead exposure out of their environment so the level 
does not continue to climb. And then our next job is to watch 
the child closely, and if anything developmentally happens, 
then we can respond.
    The deficits are not likely fixed and a foregone 
conclusion. It's important to not assume that children who are 
exposed to lead are, you know, damaged, you know, 
automatically. So it's a little bit of a complicated risk 
assessment, but in individual children I just try to provide 
guidance and hope and attention to where the sources are.
    Ms. Wexton. Thank you. Mr. Ramos, I was very interested to 
hear about what you have done in the Chicago Public Schools. 
And I am reminded of when I was growing up my dad would 
always--I have a very distinct memory of him standing at the 
kitchen sink running the faucet, running the tap for several 
minutes before he would fill the coffee pot in the morning. And 
I, being the budding environmentalist in, you know, first grade 
or whatever would say, ``Dad, why are you wasting the water 
like that?'' And he said, no, I needed to do that to get the 
clean--you know, to get the--to flush the water make sure that 
there's no bad stuff there. And it turns out it sounds like he 
was right. And I really appreciate what you have done for the 
Chicago Public Schools and beyond and your technology.
    Now, you spoke about a pilot program that the schools did 
to test out your technology, the Noah process. Is that 
something that Chicago Public Schools picked up the tab 
entirely for that, or was there any Federal or State support 
available for that?
    Mr. Ramos. For all the pilot programs in Chicago Public 
Schools I donated all the devices, so CPS only had to pay the 
plumbers and electricians to actually do the infrastructure 
work.
    Ms. Wexton. OK.
    Mr. Ramos. But the devices themselves were free to CPS and 
the schools.
    Ms. Wexton. So this sounds like a pretty good, reliable, 
low-cost way to mitigate the damage when lead is already 
present in the system, is that correct?
    Mr. Ramos. Absolutely. I believe that it is.
    Ms. Wexton. OK. Thank you very much----
    Mr. Ramos. Thank you.
    Ms. Wexton [continuing]. And I yield back.
    Chairwoman Sherrill. Thank you very much. I now recognize 
Congressman Payne for 5 minutes.
    Mr. Payne. Thank you, Madam Chair.
    Mr. Ramos, my question was going to be the cost of the 
system, and in your remarks you mentioned that--well, 
Congressman Beyer's question, the replacement of the unit, what 
do you feel its life expectancy will be, and how many times 
will you have to replace it during a lifetime?
    Mr. Ramos. Well, since it's the first of its kind, I can 
just give the testimony on the success that we're seeing in 
Chicago. We've had devices running for 3 years without having 
to replace any of the components or the device itself. So I can 
say at least 3 years.
    Mr. Payne. So it's still an ongoing test on the life 
expectancy----
    Mr. Ramos. Yes.
    Mr. Payne [continuing]. Yes, the unit. So you really don't 
know yet basically?
    Mr. Ramos. I really don't know yet, but I could say at 
least 3 years.
    Mr. Payne. OK. And so--and the cost of the unit is--would 
be--you're looking at a residential around $250?
    Mr. Ramos. That's correct.
    Mr. Payne. OK.
    Mr. Ramos. And we're here to work with the willing. Anyone 
or any district, we're willing to work with budget constraints 
because it is a very, very, very important topic, and anything 
we could do to help, I think we all need to chip in together 
and just get it done.
    Mr. Payne. OK. Thank you. Madam Chair, I yield back.
    Chairwoman Sherrill. Thank you very much. And thank you to 
all our panel members. It's been a great hearing today and 
wonderful to hear from you.
    The record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee may ask of the witnesses.
    The witnesses are excused, and the hearing is now 
adjourned. Thank you so much.
    [Whereupon, at 11:55 a.m., the Subcommittee was 
adjourned.]The Honorable Joe DiVincenzo, Jr.The Honorable 
Joseph ScarpelliThe Honorable Michael VeneziaDr. Diane Calello

                               Appendix I

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
